IN THE

Supreme Court of the United States
ERICH G. SORENSON,
v.

Petitioner,

COMMONWEALTH OF MASSACHUSETTS,
Respondent.
On Petition for a Writ of Certiorari to the
Massachusetts Appeals Court
CERTIFICATE OF SERVICE
I, Gerard J. Cedrone, counsel of record and a member of the Bar of this Court,
certify pursuant to Supreme Court Rules 29.3 and 29.5 (as modified by the Court’s
order of April 15, 2020) that I have, this 11th day of June 2021, served the Petition
for a Writ of Certiorari upon each party separately represented in this proceeding
by causing an electronic copy of the same to be delivered to counsel of record at the
address listed below, in accordance with the parties’ prior agreement:
RANDALL E. RAVITZ
CHIEF, APPEALS DIVISION, CRIMINAL BUREAU
MASSACHUSETTS ATTORNEY GENERAL’S OFFICE
randall.ravtiz@mass.gov
In addition, pursuant to Supreme Court Rules 29.3 and 29.7, I have caused
electronic copies of all documents to be filed with the Clerk.
I further certify that all persons required to be served have been served.

June 11, 2021

/s/ Gerard J. Cedrone
GERARD J. CEDRONE
GOODWIN PROCTER LLP
100 Northern Avenue
Boston, MA 02210
gcedrone@goodwinlaw.com
(617) 570-1849
Counsel of Record for Petitioner

